<html>
<title> - NOMINATIONS OF HON. LINDA M. SPRINGER, HON. LAURA A. CORDERO, AND HON. NOEL ANKETELL KRAMER</title>
<body><pre>[Senate Hearing 109-156]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-156
 
NOMINATIONS OF HON. LINDA M. SPRINGER, HON. LAURA A. CORDERO, AND HON. 
                          NOEL ANKETELL KRAMER

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                 ON THE

 NOMINATIONS OF HON. LINDA M. SPRINGER, TO BE DIRECTOR, U.S. OFFICE OF 
  PERSONNEL MANAGEMENT; HON. LAURA A. CORDERO, TO BE ASSOCIATE JUDGE, 
  SUPERIOR COURT OF THE DISTRICT OF COLUMBIA; AND HON. NOEL ANKETELL 
  KRAMER, TO BE ASSOCIATE JUDGE, DISTRICT OF COLUMBIA COURT OF APPEALS


                               __________

                             JUNE 15, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
22-194                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
            Jennifer A. Hemingway, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
         Adam R. Sedgewick, Minority Professional Staff Member
                      Trina D. Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Pryor................................................     5
    Senator Carper...............................................    11
Prepared statements:
    Senator Collins..............................................     6
    Senator Levin................................................     6
    Senator Akaka................................................     6
    Senator Lautenberg...........................................     7

                               WITNESSES
                        Wednesday, June 15, 2005

Hon. Linda M. Springer, to be Director, U.S. Office of Personnel 
  Management.....................................................     3
Hon. Eleanor Holmes Norton, a Representative in Congress from the 
  District of Columbia...........................................    17
Hon. Noel Anketell Kramer, to be Associate Judge, District of 
  Columbia Court of Appeals......................................    21
Hon. Laura A. Cordero, to be Associate Judge, Superior Court of 
  the District of Columbia.......................................    21

                     Alphabetical List of Witnesses

Cordero, Hon. Laura A.:
    Testimony....................................................    21
    Biographical and professional information....................   105
Kramer, Hon. Noel Anketell:
    Testimony....................................................    21
    Biographical and professional information....................    70
Norton, Hon. Eleanor Holmes:
    Testimony....................................................    17
Springer, Hon. Linda M.:
    Testimony....................................................     3
    Prepared statement...........................................    33
    Biographical information.....................................    36
    Responses to pre-hearing questions...........................    44

                                APPENDIX

Rep. Todd Russell Platts, prepared statement.....................    27
Hon. Paul Strauss, Shadow Senator from the District of Columbia, 
  prepared statement.............................................    29


NOMINATIONS OF HON. LINDA M. SPRINGER, HON. LAURA A. CORDERO, AND HON. 
                          NOEL ANKETELL KRAMER

                              ----------                              


                        WEDNESDAY, JUNE 15, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m., in 
room SD-562, Dirksen Senate Office Building, Hon. George V. 
Voinovich, presiding.
    Present: Senators Voinovich, Carper, and Pryor.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. This hearing will come to order. Good 
afternoon and welcome. It looks like there are lots of family 
and friends here today for Ms. Springer and for our two judges.
    Today the Committee on Homeland Security and Governmental 
Affairs meets to consider three pending nominations, the 
nomination of Linda Springer for the Director of the Office of 
Personnel Management, the nomination of Judge Noel Kramer to be 
an Associate Judge of the District of Columbia Court of 
Appeals, and the nomination of Laura Cordero to be an Associate 
Judge for the Superior Court of the District of Columbia. I 
thank all of you for being here today. We are going to begin by 
considering the nomination of Linda Springer.
    Ms. Springer, as you know, I am committed to the needs and 
challenges of the Federal workforce and have devoted 
significant time to it since being elected to the Senate in 
1999. Clearly there is no more important position in the 
Executive Branch of Government than the Director of the Office 
of Personnel Management to address these issues.
    The Federal Civil Service now is undergoing significant 
reforms, the most significant since 1978. For example, agencies 
are implementing new performance management and pay-for-
performance systems for the Senior Executive Service, and the 
Department of Homeland Security and Department of Defense are 
designing new personnel systems to meet their national security 
missions.
    In addition to having a vital role in ensuring the success 
of these reforms, OPM has an important operational 
responsibility to Federal departments and agencies as well. I 
know that when I was governor of Ohio, the Department of 
Administrative Services served all executive agencies. The 
Department has a large responsibility, and if things did not 
work in Administrative Services, things did not work in the 
departments.
    OPM continues to implement the human resources line of 
business which will establish shared service centers to 
delivering a broad array of office personnel services to 
multiple agencies. The Office of Management and Budget 
estimates that this will produce a savings of 1.1 billion over 
the next 10 years, while improving efficiency and effectiveness 
of human resource transactions and administration.
    In addition, OPM is taking over the responsibility for 
conducting the majority of security clearance background 
investigations for the government, for which there is a 
significant backlog. This is a vital national security mission 
that must be executed better. I assure you I will continue to 
monitor OPM's performance of this responsibility.
    Ms. Springer, if confirmed as Director it would be your 
responsibility to oversee and successfully implement all of 
these reforms, and as I say, it is no small task.
    I understand that Senator Pryor will be here in a few 
minutes, and he may have an opening statement. Senator Akaka is 
attending the funeral of Senator Exon, so he will not be here.
    Ms. Springer, you have filed responses to a biographical 
and financial questionnaire.\1\ You have answered pre-hearing 
questions\2\ submitted by the Committee and you have had your 
financial statements reviewed by the Office of Government 
Ethics. Without objection, this information will be part of the 
hearing record, with the exception of the financial data, which 
are on file and available for public inspection in the 
Committee offices.
---------------------------------------------------------------------------
    \1\ The biographical information appears in the Appendix on page 
36.
    \2\ The responses to pre-hearing questions appears in the Appendix 
on page 44.
---------------------------------------------------------------------------
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath, and 
therefore, Ms. Springer, I ask you to please stand and rise.
    Do you swear that the testimony you are about to give this 
Committee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Ms. Springer. I do.
    Senator Voinovich. I understand that you have some family 
members here today, and I would like to give you an opportunity 
to introduce them. Please make any opening remarks at this 
time.
    Ms. Springer. Thank you, Mr. Chairman. I do have five 
members of the family here today that I'd like to introduce. 
First in the front row is my mother, Marie Springer from 
Pennsylvania. And, in the second row behind her, my Uncle Frank 
Caskirella, Aunt Marian Caskirella, and cousin Susan Young with 
her husband, Andy Young, also all from Pennsylvania.
    Senator Voinovich. Pennsylvania is well represented here 
today. Thank you for coming. This is a very special occasion 
and I want to thank the Springer family for the sacrifice that 
they have to make so that Linda can serve her country. I know 
she had some other ideas for her future but received the call 
to service from the President. We are so happy that she was 
willing to respond to that call.
    I will now begin with the standard questions this Committee 
asks all nominees. First of all, is there anything that you are 
aware of in your background that might present a conflict of 
interest with the duties of the office to which you have been 
nominated?
    Ms. Springer. No, there is not.
    Senator Voinovich. Do you know of anything otherwise that 
would in any way prevent you from fully and honorably 
discharging the responsibilities of the office to which you 
have been nominated?
    Ms. Springer. No.
    Senator Voinovich. And last, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify by any duly constituted Committee of Congress if you 
are confirmed?
    Ms. Springer. I do.
    Senator Voinovich. I just want to remind you, that this is 
important to us. Some of the Members of Congress are a little 
bit frustrated because so often they do not think that they 
received appropriate responses. I think it is good that if the 
Committee wants you to come up--and I can assure you that it is 
not going to be often--that you try to accommodate us with 
those requests.
    Ms. Springer. I will do that.
    Senator Voinovich. Great. I am interested in having your 
opening statement. Do you have anything you would like to share 
with us before I start asking questions?

  TESTIMONY OF THE HON. LINDA M. SPRINGER,\1\ TO BE DIRECTOR, 
              U.S. OFFICE OF PERSONNEL MANAGEMENT

    Ms. Springer. Thank you, Mr. Chairman. I do have an opening 
statement, and in its entirety I would like it to be submitted 
for the record, and I will summarize it.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Springer appears in the Appendix 
on page 33.
---------------------------------------------------------------------------
    I am pleased to be before this Committee again, as I have 
been in the past, as you consider my nomination to be the next 
Director of the Office of Personnel Management. I want to 
express my gratitude to you, Mr. Chairman, as well as to 
Senator Collins and Senator Akaka for arranging for this 
hearing today, and we have obviously been looking forward to 
it.
    I also want to acknowledge the courtesies of the other 
Members and their staffs in allowing me to come up and visit 
with many of them in advance of the hearing.
    It is truly an honor for me to be nominated for this 
position by President Bush, and it's a particular honor to have 
the opportunity to be considered to lead the Office of 
Personnel Management.
    Mr. Chairman, there are currently 1.8 million members of 
the Civil Service. On occasion these dedicated professionals 
are called resources or capital or assets, but I see them as 
professionals who are engaged in activities that are going to 
shape our world for years and decades to come. They are people, 
not entries on a balance sheet, and in that regard, we have a 
responsibility to make sure that they're able to perform their 
duties, perform them successfully, and to be compensated 
relative to the performance of those duties.
    With the passage of reforms in the Department of Homeland 
Security and the Department of Defense, as well as the Federal 
Workforce Flexibility Act of 2004, we have set a path for 
creating, what I consider to be, a work environment that will 
really and truly reward, as well as recruit and retain, top 
quality performers.
    During my meetings with Members of the Committee, I have 
been asked some very important questions about personnel 
management reforms. Today I want to say to you and to the men 
and women of the Civil Service, just as importantly, that I am 
deeply aware of the concern about reform, and I pledge to all 
of you that OPM, should I be its next director, will be 
committed to a fair and effective implementation of any 
personnel reform that we undertake.
    I'd like to share with you four principles on which I think 
reform should be based. The first is that core values and 
principles and protections that have served employees over the 
years must be preserved. Second, an effective personnel system 
should support employees by helping them to realize their full 
potential and providing the highest level of service to their 
constituents. Third, an employee's career and pay potential 
shouldn't be determined by the passage of time, but should be 
recognized and evaluated based on achievement. And fourth, 
managers should be given the training and tools to allow them 
to effectively carry out their responsibilities.
    All four of those are principles that I've followed in the 
past, both in the private and in the public sectors, and I'd be 
guided by them as OPM Director.
    Now, to call these reforms modern is really misleading. 
They're not new. They've been in practice for decades and 
decades in the private sector. While they're new to many of us 
in the Federal Government, they're not new territory, an 
untraveled territory. Performance as a basis for pay has been 
used, as I've said, for decades. I personally have been paid on 
that basis, managed on that basis, and designed programs on 
that basis throughout my professional life, and I think that's 
an important consideration in why I would be able to help lead 
us in that effort.
    These systems, I have found, result in mutual support and 
reinforcement within organizations, and have really led to 
higher and higher levels of success in carrying out the 
missions of organizations who really are performance driven. 
And, employees and managers outside of government, as I say, 
have done it for years, and I don't believe that the members of 
the Civil Service are any less capable of carrying out and 
working in that kind of system, given the proper training. It 
always comes back to training. It's very important.
    Beyond that, I'm very impressed with the dimensions of 
service provided by OPM. OPM is involved from the front end 
with things like investigative services, as you've mentioned, 
in a much broader role, all the way through to retirement 
services at the latter stages. OPM associates support the 
Federal Government workers throughout their career and beyond, 
and not only the workers themselves, but their extended 
families. In our Federal Employees Health Benefits (FEHB) 
program we are covering about 8 million people, and that's 
extended past, present, and families of our employees, so it's 
a very large undertaking and a very large responsibility that 
OPM has.
    And as you know, in that regard, I've spent many years in 
the financial and insurance and annuity sector, and I'm 
knowledgeable regarding all of those opportunities and needs 
for financial security across the entire life cycle of 
individuals and their families. I think that's a background 
that will be increasingly important and will be helpful to me 
in carrying out these duties should I be confirmed as the next 
OPM Director.
    I want to recognize and thank you, Mr. Chairman, and 
acknowledge your leadership and Senator Akaka's in establishing 
the Chief Human Capital Officers Council and passing that Act. 
There is very important work done there. I know many of the 
members, and I look forward to working with them should I be 
confirmed.
    Last, Mr. Chairman, I want to close with a commitment to 
you, the other Members of this Committee, and to all of the 
Members of the Congress, that I will continue to look forward 
to a constructive and a positive relationship with all of the 
Members as I have worked very hard to maintain in the past. 
And, I will give you my assurance of open communication and of 
a very constructive and open and positive, and hopefully, a 
productive period between OPM and the work of this Committee 
for the benefit of the Civil Service members and the American 
citizens.
    And with that, I look forward to your questions.
    Senator Voinovich. Thank you very much.
    Senator Pryor, thank you for pinch hitting for Senator 
Akaka. We really appreciate your presence here today.
    Senator Pryor. Thank you.
    Senator Voinovich. Before we begin questions of Ms. 
Springer, I would like to give you the opportunity to make a 
statement.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Mr. Chairman. Let me just say a 
few words, that Senator Akaka could not be here today, and he 
regrets that he could not. I know I am a poor substitute, but I 
look forward to this hearing and look forward to hearing 
everything that you have to say today.
    Mr. Chairman, thank you for your leadership on not just 
this nomination, but many issues relating to OPM and personnel 
issues throughout the Federal Government.
    Ms. Springer, I know that you share our commitment to 
really making the Federal Government an employer of choice, and 
one that people would see as a very good option for them 
personally and a good place to work, and a good career field. I 
know you have some challenges there at OPM with impending 
retirements. I have seen your OPM staff, and I know you have 
some succession planning in process there, and that is 
important. Also I know you have the challenge of modernizing 
OPM recordkeeping systems, and that is a challenge from time to 
time for every organization, so I know you are up to that.
    I think OPM needs strong and decisive leadership, and I 
believe that you have those qualifications. I am sorry that 
Senators Collins, Akaka, Levin, and Lautenberg could not be 
here today because I know they want to be here, but they have 
been called away. I would ask unanimous consent that their 
statements and questions be submitted in the record if that is 
OK, Mr. Chairman.
    Senator Voinovich. Without objection. Thank you.
    [The prepared statements of Senator Collins, Senator Akaka, 
Senator Levin, and Senator Lautenberg follows:]

                 PREPARED STATEMENT OF SENATOR COLLINS

    Senator Voinovich, I appreciate your willingness to chair today's 
hearing as the Committee considers the nomination of Linda Springer to 
be Director of the Office of Personnel Management. This position is 
vitally important given the challenges facing the Federal civil 
service.
    As Director, Ms. Springer would help ensure that the personnel 
systems proposed for the Departments of Homeland Security and Defense 
are the products of a collaborative process that fully involves 
employees and employee unions, as Congress intended. As with any 
reform, employee acceptance will be essential to its success.
    When this Committee assumed its new name earlier this year, we took 
on a new role. Now, in addition to overseeing the Federal Government, 
we have the responsibility of helping to protect our homeland. In 
homeland security parlance, we talk about protecting critical 
infrastructure. Well, there is no infrastructure more critical to the 
functioning of our government than our Federal workforce. Given the 
vital importance of the many missions the government carries out on 
behalf of the nation, the OPM Director must ensure our government has 
the ability to recruit and retain a highly skilled workforce for many 
years to come. The nominee appears to have the executive management and 
leadership skills necessary to meet the challenges that lie ahead.
    Ms. Springer has already demonstrated her commitment to public 
service, having recently served our nation as Controller of the Office 
of Management and Budget and the Director of the Office of Federal 
Financial Management. Welcome back to the Committee, Ms. Springer. I 
look forward to your testimony.

                               __________

                  PREPARED STATEMENT OF SENATOR LEVIN

    Ms. Springer, welcome to the Committee. If you are confirmed, you 
will take over the Office of Personnel Management at a critical time. 
As you know, the Department of Defense is currently in the process of 
implementing a new National Security Personnel System. The statute that 
authorized the establishment of NSPS made OPM a full partner with DOD 
in the implementation of this new system, so you will have a critical 
role to play in this process.
    In my view, the proposed NSPS is unlikely to be successful unless 
it has the broad support of the DOD employees who must live with it. 
Right now, DOD appears to be losing that battle. The draft regulations 
proposed to implement NSPS include a number of provisions which appear 
to send the message to DOD employees that the leadership of the 
Department of Defense doesn't trust them and isn't interested in 
ensuring that they are treated with the fairness and equity that they 
deserve. The ``meet and confer'' process under which DOD is supposed to 
consult with employee representatives, appears to have been almost 
dysfunctional, with five or six major DOD unions walking out last 
month.
    Ms. Springer, I hope that, if confirmed, you will make sure that 
you are a full partner in the implementation of NSPS and will not be 
afraid to take whatever steps are necessary to ensure that the new 
personnel system is implemented in a way that is fair and balanced, and 
respects the legitimate interests of DOD employees.

                               __________

                  PREPARED STATEMENT OF SENATOR AKAKA

    Thank you, Senator Voinovich. I want to join you in welcoming our 
nominees along with their family and friends to the Committee today.
    I also wish to thank Delegate Norton for taking the time to 
introduce Judge Noel Kramer to be an Associate Judge on the D.C. Court 
of Appeals and Laura Cordero to be an Associate Judge on the D.C. 
Superior Court. Both Judge Kramer and Ms. Cordero have impressive 
resumes and are exceptionally qualified to serve in the positions for 
which they have been nominated. I look forward to their testimony and 
learning their thoughts on the D.C. Court system.
    Ms. Springer, as Chairman Voinovich has noted, you have capably 
served this Administration as Comptroller of the Office of Management 
and Budget, and I know from our recent meeting that you are looking 
forward to taking on the new responsibility of the President's Chief 
Human Capital Officer. I commend your commitment to public service.
    Your nomination comes at a critical juncture for the Office of 
Personnel management (OPM) and the Federal workforce. If confirmed, you 
will play a pivotal role in advancing the Administration's proposal to 
extend to all agencies a variation of the new personnel regulations for 
the Departments of Defense (DOD) and Homeland Security (DHS).
    As you know from our meeting in April, I believe it is premature to 
give agencies the authority to modify the current personnel system 
based on the untested rules in place at DHS and DOD. One reason I feel 
so strongly about this is that Senator Voinovich and I have 
successfully moved forward a number of significant workforce 
flexibilities which, unfortunately, are under utilized according to 
congressional testimony and numerous reports by the Government 
Accountability Office (GAO).
    Moreover, too many agencies, including the Department of Defense, 
lack strategic human capital plans that identify the skills and talents 
needed to meet future missions. Agencies must make a business case when 
seeking new flexibilities and should have a proposed plan of action to 
address their personnel needs, such as skill gaps, in order to be 
successful. But using DOD once again as an example, there is no single 
document identifying DOD's recruitment and retention strategy or goals 
for its current and future workforce. Without such documented needs and 
a plan of action, I believe the National Security Personnel System is 
headed for failure.
    Given employee reaction to the DHS and DOD regulations, I fear the 
Administration is going down a road that diminishes employee input into 
the implementation of these new systems and fails to ensure employee 
rights and protections. And yet, the Administration argues that once 
the new personnel systems at DHS and DOD are fully implemented, non-DOD 
and DHS workers will want to transfer to those two agencies because of 
the perception that they will receive greater pay increases. I do not 
think that will happen.
    Agencies will continue to face flattened or diminished budgets and 
DHS and DOD employees will no longer have true collective bargaining 
rights or independent review of grievances. Thus, I fail to see how 
there will be adequate resources to properly train managers and 
employees on new disciplinary, labor-management, appeals, and pay-for-
performance systems, let alone guarantee sufficient funds for 
performance bonuses or pay increases. The lack of funding for training 
deeply concerns me. Congress has been warned that without strong 
training, there are no guarantees that employees will have fair and 
transparent appraisal systems that provide for meaningful distinctions 
in performance--the most critical component of performance based pay.
    Ms. Springer, the stewardship of the Federal workforce will be your 
responsibility. Employees will look toward OPM to safeguard their 
rights and their paychecks from unfair and discriminatory performance 
evaluations. Although you and I respectfully disagree over the need to 
pursue wholesale, government-wide personnel changes at this time, I 
believe you are sincere in your desire to work with Congress and with 
employees.
    Ms. Springer, Judge Kramer, and Ms. Cordero, again I welcome and 
congratulate each of you on your nomination. Thank you, Mr. Chairman.

                               __________

             PREPARED STATEMENT OF SENATOR FRANK LAUTENBERG

    Mr. Chairman, thank you for the opportunity to comment on the 
important role Ms. Springer has been nominated to serve in our 
government: Director of the Office of Personnel Management (OPM).
    First, let me congratulate this New Jersey native on her 
nomination.
    I had the pleasure of meeting with Ms. Springer after her 
nomination, and she was willing to discuss her views on Administration 
policy and the future of the Federal workforce, and I appreciated that.
    OPM is essentially the ``human resources'' department for the 
Federal Government, and there has perhaps never been a more important 
time in our nation's Federal workforce from the perspective of labor 
and Federal employees.
    I must admit, I have been terribly distressed by this 
Administration's willingness to erode collective bargaining rights in 
its path to a new ``pay-for-performance'' system, and to diminish the 
ability to appeal personnel decisions.
    I simply do not understand this Administration's efforts to weaken 
the rights of rank-and-file employees.
    I am especially disturbed that we have chosen to invite cronyism 
and political bias into the employment decisions of senior government 
managers and appointees.
    The General Schedule system has served our country and its Federal 
workforce well.
    I do hope Ms. Springer will take a fresh look at these changes and 
work with our Federal employees to strengthen our workforce without 
walking all over them.
    I hope that Ms. Springer's impressive experience in both the 
private and public sectors will permit her to decide objectively which 
models from the private sectors are suitable in the public sectors, and 
which are not.
    I also wish to congratulate Laura Cordero and Noel Kramer on their 
judicial nominations to the Superior Court of the District of Columbia 
and the District of Columbia Court of Appeals, respectively. I look 
forward to their testimony as well.
    Thank you.

    Senator Voinovich. Ms. Springer, I had a wonderful 
opportunity to visit with you in my office and got to ask the 
ABC questions of why do you think you are qualified for this 
job. So I am not going to repeat some of those. But I do have 
other questions I would like you to answer for the record.
    When the Department of Homeland Security was created, 
Senator Akaka and I added language to provide for enhanced 
human capital flexibilities for the Federal Government. We had 
been working on this legislation for years and we thought they 
would not only help the Department of Homeland Security, but 
all Federal departments. For example, agencies can now use 
category ranking to hire employees instead of the outdated rule 
of three. However, at a Subcommittee hearing I held on the 21st 
of April this year, GAO said agency usage of these 
flexibilities varies at best.
    Given this information, what strategies will you employ to 
ensure that the Federal agencies understand and utilize all of 
the government wide human capital flexibilities that we have 
made available to them?
    Ms. Springer. One of the things that is important, first of 
all, with those flexibilities is not only that they're using 
them, but also they're using them wisely, using them in ways 
that they're tied to the missions of the agencies, that they're 
not using them frivolously. There is only a certain amount of 
money to go around, and it's got to be dedicated to using 
things like direct hire and other types of flexibilities and 
incentives in a way that will provide the best return and 
support the mission.
    What I would like to do first in that regard is to work 
with the Chief Human Capital Officers because in that group, 
you have the representation of all of the agencies and 
departments, and to make sure that they first of all are able 
to be my arms and eyes and legs back to the agency in a very 
direct way, to know that we've got a full accounting for how 
they're using them or not using them.
    I agree with you that it's disappointing to hear that 
they're not using them to their fullest extent because I 
believe in them, and I believe they'd be very valuable. So my 
first line of attack there, if you will, would be to work with 
the Chief Human Capital Officers to get a full accounting.
    Senator Voinovich. As you know, I believe that an open and 
continual dialogue between employees and management is 
imperative. This practice becomes even more important as the 
workforce is in transition as it is now. This is a critical 
time. Everyone just takes for granted that 160,000 employees of 
the Department of Homeland Security are coming together. It is 
the biggest management challenge that this government has had 
since creating the Department of Defense. So much of the 
success, not only in the Department of Homeland Security, but 
particularly the Defense Department, depends upon the kind of 
relationships that are created between management and those 
people that represent the employees.
    How would you establish a relationship with representatives 
of Federal employee organizations, and could you be specific as 
to what kind of consultation, negotiation, collaboration, and 
information sharing you see as appropriate and beneficial to 
OPM's vision?
    Ms. Springer. Well, as an indication of the type of 
openness of communication I'd like to have, one of the things I 
would share with you, Mr. Chairman, is that the very first two 
people that I called after my nomination was made public were 
Colleen Kelly, who, as you know, is the head of the NTEU, and 
John Gage, who is the head of the other very large group, the 
AFGE. And, I called both of them before I called anyone else to 
offer to them that I would like to have a very open 
relationship with them, and as soon as I was confirmed, 
hopefully, as Director, that they would be my first two calls 
again, and that I would like to meet with them.
    And really, there are three principles I would like to 
follow. One is that of open communication, having a very strong 
line of communication between the union leadership and the 
Director of OPM so that there's no misunderstanding. We 
shouldn't be having to communicate through the media. There 
should be very direct and open communication.
    Second, a principle that I would follow in that 
relationship is to be personally involved and not delegate, 
necessarily. I've always been very hands-on, and I think it's 
important in these issues where you're talking about matters 
that are key to the men and women of government. They're 
people, as I say, not entries on a balance sheet, not assets--
these are people issues, particularly things like their pay and 
their benefits, so I want to be personally involved.
    I think that they will find I am, and I will be committed 
to being, a very straight shooter. I am not going to be playing 
games, and I will be very direct and very candid and very open. 
They'll be able to take me at my word.
    Then third is that those communications and relationships 
will be characterized by having a very strong interest in 
what's best for the men and women of the Federal Government. 
And, I think that it would be naive to think that we're going 
to agree on everything. We have different perspectives, but I 
think that those three principles will carry us very far, and 
that would be my approach, to always maintain that type of a 
standard.
    Senator Voinovich. Thank you. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    I know that as part of the new Department of Homeland 
Security personnel regulations, the responsibility for deciding 
collective bargaining disputes will lie with a three-member 
internal DHS Labor Relations Board. Currently throughout the 
Federal Government those type of disputes are decided by the 
Federal Labor Relations Authority, as you well know. Do you 
believe that this internal labor relations board at DHS meets 
the statutory mandate of the Homeland Security Act that DHS 
employees may, ``organize, bargain collectively and participate 
through labor organizations of their own choosing in decisions 
which affect them?'' Do you think it meets the statutory 
requirement?
    Ms. Springer. I do, Senator. I do believe that one must 
consider not just the board which, as you say, is responsible 
in that manner, but certainly the opportunity for input and 
recommendations for members. But I believe that it is the 
totality of the interaction, whether it's through things like 
the meet and confer that already took place with DHS in the 
early stage, that ensures all of the representation elements of 
the bill are satisfied in the way that DHS has been carrying 
things out.
    Senator Pryor. Sticking with DHS just for another moment or 
two, the personnel regulations there at DHS say that many 
personnel decisions, for example, pay, will now be based on 
more arbitrary, I might say arbitrary factors under the control 
of, say, local port supervisors and port directors. My sense is 
that system will take much more training and administrative 
time. And how will those administrative costs, the additional 
administrative costs for a system like that be paid for?
    Ms. Springer. Well, you're absolutely right that training 
is really the keystone for making sure that this is successful, 
and it's training at a variety of levels, manager training in 
particular being very important.
    Senator Pryor. And do you have the resources to do that 
training at DHS? I guess my concern is it might take away from 
their primary mission.
    Ms. Springer. Well, one of the things that was--and I want 
to thank and congratulate the Chairman--was that there was a 
challenge. It's my understanding, too, some of the funding that 
was in the proposal for the 2006 budget, in the amount of $50 
million, I believe, directly related, very specifically 
related, for training for DHS in this regard. And, thanks to 
his efforts and some others, that is, I believe, going to see 
the light of day, and it should, because as you say, calling 
for new training, calling for new systems, but not funding it 
really would undermine that effort.
    Senator Pryor. Right. If we can stick with our DHS theme 
here this afternoon, let me also say that DHS employees pay is 
shifting from a GS scale pay system to a pay-for-performance 
system under the new DHS personnel regulations. I am curious 
about that in the sense that are you aware of any large-scale 
pay-for-performance system that has been successfully 
implemented in a law enforcement environment?
    The reason I ask that is because law enforcement oftentimes 
in most cases relies on a lot of teamwork, and I can almost see 
trouble brewing if the members of the team are really competing 
against one another for pay. I just have a concern about that.
    Ms. Springer. To answer your question very specifically, I 
have not been a part of any implementation for a law 
enforcement organization. My background didn't really intersect 
with any law enforcement organization, so I can't say that I 
have any intimate knowledge of any.
    What I do have knowledge though, and have participated in 
pay-for-performance implementations where there was a teamwork 
structure in place, and where the success of one individual 
really was dependent on others. It was almost like an interlock 
between members of the team. No one individual could be 
successful and receive the compensation reward that would go 
with that success if the other teammates weren't equally 
successful. And as a matter of fact, I was paid that way. And, 
there were individuals in the organization where I was 
responsible for a line of business, and I was paid based on the 
sales of that organization or the investment return of the 
portfolio manager, and none of those people reported to me.
    I had no control over them. But half of my pay was 
determined by things like that, so it was really, ultimately up 
to me to visit with them, to make sure they had everything they 
needed to be successful. And, all of us had the same goals even 
though we were only responsible for pieces.
    So, at the end of the day, it can work in a teamwork 
environment, but it really requires that you function as a 
team, and so, although I haven't seen it in law enforcement, 
I've seen it used successfully in other teams.
    Senator Pryor. Thank you.
    Senator Voinovich. Ms. Springer, I first of all would like 
to welcome Senator Carper. Senator, would you like to say a few 
words before we continue our questions?

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. I just want to talk with Ms. Springer about 
her FBI report but--just kidding. [Laughter.]
    It was page 7 especially, the underlined parts. [Laughter.]
    Let me just sit here and catch my breath, and then I will 
be right up with you. Thank you.
    Senator Voinovich. One of the things that we insisted on 
when we went forward with the new personnel system for the 
Department of Defense was participation by OPM. We thought it 
was absolutely essential. If you are going to do the job that 
you are supposed to do, it is going to be very important that 
you have the courage to speak out in regard to things that are 
of great concern to you. For example, you just mentioned one of 
the things that I am concerned about in the MAX HR program at 
the Department of Homeland Security. The House of 
Representatives voted to cut the budget. I just could not 
believe it.
    It seems to me that you are going to have a major 
responsibility and be very vocal in this matter. The question I 
have is, do you think you have the courage to do so? There are 
going to be some times when you are going to really have to put 
your foot down. For example, I will never forget going over on 
my own to the Defense Department. I insisted on a meeting with 
Secretary Rumsfeld and ended up with Mr. Wolfowitz. The Defense 
Department was going to go forward and implement its new 
personnel system by October of last year. I said, there is no 
way on God's earth that you are going to ever be able to do 
that. That caused some pause, and they were anticipating me and 
came up with a new program. Ms. Springer, you are going to have 
to evaluate these programs, and if you think they are moving 
improperly, intervene.
    For example, I think I mentioned training when you were in 
the office. I surveyed agencies on training when I first came 
to the Congress. I asked the question, ``How much money do you 
spend on training?'' Eleven Departments said, ``We do not 
know,'' and one said, ``We do know but we will not tell you.'' 
There are some fundamental things that should be in place in 
terms of human resources.
    Ms. Springer. Yes, I am, definitely. Senator, it would have 
been a mistake for anyone, including me, to take this job who 
wasn't willing to do that, and I think that's one reason why I 
was picked for this job. I think you know that people like Clay 
Johnson and other people who know me pretty well and whom I've 
worked with are not bashful people. I think they know that I'm 
up to that job. Frankly, there are two things I want to say in 
regard to this.
    First, I want to thank you and the other Members who made 
sure that OPM did have a strong role in this, and I think it 
would have undermined OPM's position, OPM's responsibility, 
frankly, as the chief personnel organization in the Executive 
Branch, to not have had a major role in these reforms. And, the 
Department of Defense is no exception to that. So, I appreciate 
it and I applaud you all for having done that. But at the same 
time, in addition, it comes down to the person and the 
organization, OPM itself, to carry those things out. Just 
putting it on a piece of paper doesn't mean that it's going to 
happen, but I'm committed to making that happen.
    One of the things that I think you know from our 
conversations is that I was ready to go back to Pennsylvania. I 
didn't take this role because I was looking to run for office 
or build a public image or anything else. I'm here because I 
care about good government, I care that what we're doing here 
is right, and it's done right. And, if that means that I'm 
going to get a little scuffed up or have to take off the gloves 
a little bit, that's fine. That just goes with the territory as 
far as I'm concerned.
    Senator Voinovich. Senator Carper, any further questions?
    Senator Carper. Yes. When you worked at Provident Mutual 
did you ever work in Delaware?
    Ms. Springer. I visited that office, but that wasn't my 
home site, but, yes, down in that Christiana area.
    Senator Carper. That is now part of nationwide.
    Ms. Springer. Yes, it is. I went through that merger.
    Senator Carper. Did you really? OK.
    Ms. Springer. Yes, I did. I was there during the merger.
    Senator Carper. And then when you left Provident, what did 
you do? How long were you with them?
    Ms. Springer. I was with Provident for 10 years, and I 
stayed through the merger, and then the senior management team 
essentially, as happens in these mergers, often moves on, and 
so I came down to work at OMB to be the head of the Office of 
Federal Financial Management.
    Senator Carper. Controller?
    Ms. Springer. Controller.
    Senator Carper. And who has succeeded you?
    Ms. Springer. Over at OMB, the nominee actually--and I 
think before this Committee--is Linda Combs, who has been a CFO 
in several of the agencies.
    Senator Carper. Would you describe her as a worthy 
successor?
    Ms. Springer. I would.
    Senator Carper. Small little story. She went to Appalachian 
State University, same college as my wife. Her math teacher 
there was my wife's father. Is that not amazing?
    Ms. Springer. Isn't that something? Yes, small world.
    Senator Carper. And I managed to work it into the hearing 
that we had. I do not know if Senator Voinovich or Senator 
Pryor were there. I said, ``Ms. Combs, I understand your 
financial skills are very good.'' She said, ``Thank you, I 
would like to think so.'' I said, ``I understand you have 
exemplary math skills.'' [Laughter.]
    And my colleagues starting looking like, where is he going 
with this? And I said, ``To what do you attribute your 
remarkable math skills?'' And she said, ``Well, I did go to 
Appalachian State University and my math teacher was your 
father-in-law.'' [Laughter.]
    I just want to know for the record, did my father-in-law 
ever teach you math?
    Ms. Springer. I don't think so, but I feel like I've missed 
out on an opportunity. [Laughter.]
    Senator Carper. I have learned a lot from him and even more 
from his daughter. [Laughter.]
    I learned some things I did not want to know too. We all 
know how that is.
    I want to ask you a little bit about pay-for-performance 
which is something that I believe in as an old governor, 
recovering governor, but before I do that, why do you think you 
are particularly well-suited for this job? I can see, looking 
at your background, why particularly the Controller position at 
OMB was well-suited, but why this job?
    Ms. Springer. As part of my time in the private sector, 
Senator, I designed those types of systems, those pay-for-
performance systems. I was paid under them. I managed people in 
them. Beyond the typical controller responsibilities I also 
managed a number of the benefits, administration areas, payroll 
areas, and had responsibilities, for a number of the human 
resource areas at Provident specifically. So it's a pretty 
broad portfolio even though the title seems to be more of a 
financial type of position.
    Pay-for-performance is--once you've been in that type of an 
organization and through my whole professional life, I have 
been--it just is a way of life, and so that developing people, 
helping them be successful in that, is something that I'm a 
believer in. I've done it, I've lived it. I've had half my 
compensation at risk. I don't just mean for the raise on my 
base pay. I mean you're going to get either zero dollars or 
you're going to get 100 percent of those dollars based on how 
you do X, Y and Z, and with people that you don't even manage, 
as I mentioned earlier.
    So, I'm sort of a living, breathing example of it, and I've 
seen it work and make the organizations more successful. But 
not just my own personal pay, but that of the people for whom 
I've been responsible and the organizations, and so I believe I 
have experience that's very relevant and will be very helpful, 
and I would say comforting, is a good word, and relieving some 
of the anxiety, that this really can work, and work to the 
benefit of people who are in that system.
    Senator Carper. I like that word ``comforting,'' 
particularly when folks who are not used to pay-for-performance 
and it seems new and scary. How do you comfort people who raise 
concerns about the possible lack of objectivity when the time 
comes to be evaluated? How do you address that concern, 
particularly in the arena in which we work as opposed to the 
private sector?
    Ms. Springer. I think, first of all, have to acknowledge 
that that's a very fair concern. We are talking about people's 
pay. There is nothing more dear to people from a professional 
standpoint, I think, than how they're compensated. And, to put 
that into the hands of someone else, a major determinant of 
that, I think, is something that creates anxiety, and so, I 
think you have to acknowledge that right off the bat. But, then 
you don't back off from it.
    You have to then be committed to making sure that the 
people who are going to make those decisions are trained, are 
operating a system that has safeguards, and one of those 
safeguards, frankly, will be that OPM will not let any of these 
go online until we are satisfied that we can certify that all 
of the pieces are in place and that the supervisors are trained 
and experienced; that they have gone through practice; that 
they have the types of performance appraisal forms and 
mechanisms that are complete; and just that there is a complete 
training before we go live with any of those. And, OPM isn't 
going to let any of those happen.
    I also think that it's important to, as I think about this, 
pick a few of the agencies that are really very well run, very 
well managed already--and I think we know who most of those 
are; GAO has their list, the President has his list--of the 
best run agencies, and work with those first and let them be 
the first wave of experience. So I think there's a way that you 
can do it that's informed, intelligent, and that will start to 
provide that comfort to the workforce.
    Senator Carper. What might be some of those agencies that 
we try this with first?
    Ms. Springer. Well, one that I think has done very well 
certainly, in the President's Management Agenda, and that I've 
worked with is Social Security, for example, and GAO usually 
gives them very high marks for how they're run. That's one that 
comes to mind.
    Senator Carper. One other question. In terms of being able 
to take the concept of pay-for-performance from the private 
sector and to transfer it to the Federal Government, are there 
any other concerns that you would have in terms of the ability 
to transfer from the one sector to the other?
    Ms. Springer. A part of the training issue that we have, is 
that we need to make sure that people know how to articulate 
goals, that they go beyond things like the GPRA and the other 
requirements for strategic planning, to really get down to 
planning and articulation. I'm a believer in articulation, in 
the writing of clear goals, so that we've got an agreed upon 
expectations for each of our employees who is under this type 
of a system. I think you should do it anyway, regardless of the 
pace, and people should know what's expected and there should 
be an agreed upon expectation in writing so that there's no 
guesswork. And, that's another one of those safeguards. That's 
my personal expectation.
    But, as you go about that, I'm concerned that we have 
managers who have not been used to doing that, and so we have 
to make sure that they get used to it and get trained in it, 
and we need to get some help from those who have done it.
    Senator Carper. Good, all right.
    Thanks, Mr. Chairman. And thank you, Ms. Springer, very 
much.
    Ms. Springer. Thank you, Senator.
    Senator Voinovich. I would just like to add on, build on 
what Senator Carper has indicated. As you know, the 
Administration is interested in implementing pay-for-
performance throughout the Federal Government. There has been 
some reluctance on my part and on the Chairman's part to 
entertain that suggestion. One of the things that I have made 
very clear to OMB Deputy Director Clay Johnson and the 
Administration is a need for their awareness and willingness to 
commit the resources to move forward with these new systems in 
the Departments of Homeland Security and Defense. I think it is 
incumbent on you, Ms. Springer, to look at what is happening 
and bring to their attention things that need to change. They 
must fully understand the commitment of talent and resources 
that are necessary to properly train people to execute an 
effective management system.
    I really do not believe some of these folks understand how 
much time and effort they are going to have to give to making 
this successful. Even the Senior Executive Service, which is 
approximately 6, 000 people, has had challenges. I suspect you 
are going to find there are some stars, and you will also find 
some are struggling.
    Also imperative is the involvement of your representatives. 
Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    I would like to follow up on a couple of the comments that 
you made a few moments ago, Ms. Springer. The Chairman talked 
about the Chief Human Capital Officers Council. As I understand 
it right now, the Chief Human Capital Officers Council, as it 
currently is today, only has political appointees on it, does 
not have career people on it. I may be wrong about that.
    Ms. Springer. I believe that there's a mixture, Senator 
Pryor.
    Senator Pryor. Is there?
    Ms. Springer. Is that right? Yes.
    Senator Pryor. I think that maybe they are eligible, but I 
am not sure any are serving right now. I am not sure.
    Ms. Springer. To my understanding it's a mixture.
    Senator Pryor. OK, great.
    Ms. Springer. I hope that it is.
    Senator Pryor. Because I was going to say that you have had 
experience on the Chief Financial Officers Council, and that 
was a mix, right?
    Ms. Springer. Yes.
    Senator Pryor. And the question I was going to ask is, is 
there value in having a mix there?
    Ms. Springer. Yes, there is, absolutely. What I found in 
the Chief Financial Officers Council was that blend of 
continuity over the years from the career staff and their 
insights that go with those many years of service and the 
perspective, was a complement and a good assist to people who 
did not have the same years of experience and depth of 
knowledge of the Federal Government and the workforce, frankly, 
in that case, in the financial arena.
    It is my understanding that we have both, and we certainly 
need to maintain that, and I'll be sure that we do.
    Senator Pryor. Great. Well, thank you, and thank you for 
your answer. That would be my guess, too, that there would be 
value.
    Last thing, again, to follow up on Senator Voinovich's 
questions a few moments ago, or his statement. There has been 
considerable discussion of expanding the developing personnel 
systems at the DOD and DHS to other parts of government, to try 
to take some of those principles and export them to other parts 
of government. Is this something that you envision taking up 
early in your tenure at OPM, or do you believe that these 
systems should be allowed to mature and to be evaluated before 
they are extended to other parts of the government?
    Ms. Springer. I would be in favor of the sooner rather than 
later, and there are a few reasons why, and some of those are 
already happening, frankly. We have smaller agencies within the 
government that have already been in pay-for-performance type 
situations. I can give you several accounts of career 
employees, well-positioned, very experienced senior career 
officials at major cabinet agencies, who have left their 
positions from these major cabinet agencies, and gone to the 
smaller agencies that had existing pay-for-performance 
structures. And, when I asked them why, that was the reason. 
They had more upside compensation potential.
    So, what was happening was there was a talent flight away 
from the agency that didn't have that pay-for-performance 
structure today, to an agency, a much smaller one, that didn't 
really need, frankly, the talent level and the skill set that 
the large agency needed in that individual, but they went. Why? 
Because of the upside compensation potential. That was the main 
factor, frankly.
    And, I felt badly about that because it was really a drain. 
I can see that happening when we have now half of the workforce 
coming into a situation under DHS and under the NSPS new 
structures. If we don't have that elsewhere or at least start 
to build that opportunity, again with the caveat of the OPM 
certification, we will have no way to ensure that when they are 
mature and are ripe, they can begin. There's nothing that says 
we have to turn the switch today for them, but we should let 
them at least have the opportunity to start to build it and 
work with their employee representatives and get it right, so 
that they don't have to wait for years and years, and be at 
that disadvantage.
    I can assure you there will be a talent drain of good 
performers who are going to be drawn to situations where they 
can have the maximum potential for their compensation. And, 
I've seen it happen already here in the government, and I think 
this will just be worse if we wait too long. So, I'm for sooner 
rather than later.
    Senator Pryor. OK. Thank you, Mr. Chairman.
    Senator Voinovich. Thank you. No further questions at this 
time.
    The hearing record will remain open for 48 hours so that 
other Members of this Committee may submit questions to you in 
writing. I am sure that you will respond to them.
    We really thank you for being here today. I must say that I 
am very impressed with you. I think you are going to do a very 
good job at the Office of Personnel Management. We will work 
with you in any way we can. I want you to consider us as being 
your friends.
    Ms. Springer. Thank you. The feeling is mutual, Senator, 
thank you.
    Senator Voinovich. Thank you.
    I would like to welcome Judge Noel Kramer and Laura 
Cordero. And particularly I want to welcome my long-time 
friend, Congressman Eleanor Holmes Norton, District of 
Columbia. Eleanor, I apologize for making you wait, but there 
were some questions that we wanted to ask the nominee for 
Director of the Office of Personnel Management. I am sure you 
understand.
    Thank you for being here, and we look forward to your 
introduction.

 TESTIMONY OF THE HON. ELEANOR HOLMES NORTON, A REPRESENTATIVE 
           IN CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Mr. Chairman. I must say I 
am on the committee in the House--so I listened raptly to your 
questions and appreciate them--the committee that will have 
oversight or jurisdiction over our new OPM Director in the 
House.
    Senator, I hope you will forgive me if I cannot begin or 
get down to the work of the day without simply thanking you for 
your work for the District of Columbia as Chairman of this 
Subcommittee. Many of the improvements in the Government of the 
District of Columbia have come through you and the work of your 
Subcommittee. I understand you, Senator. Your job here has been 
of course to be the Senator for the State of Ohio, and you have 
done that splendidly. But I must say, and I am sure I speak for 
the elected officials in the District of Columbia and for the 
people whom I represent, when I thank you for your work in our 
city. You have never forgotten that before you were a Senator, 
you were a mayor and a governor, and you brought that 
extraordinary background to your work on this Subcommittee for 
our city. So I thank you very much for that.
    And I thank you for inviting me to introduce these two very 
splendidly qualified nominees.
    Laura Cordero has spent her entire career in public 
service, and doing the kind of work that best prepares a 
nominee to do the work she will be called upon to do on the 
Superior Court. Ms. Cordero has been in the U.S. Attorney's 
Office. She came there from the Justice Department where she 
was in the Honors Program. She has been 12 years as an 
Assistant U.S. Attorney for the District of Columbia, 
representing and doing the kind of legal work she will be 
called upon to judge, and not only in the court where she will 
be sitting, the Superior Court of the District of Columbia, but 
in all of the courts of our jurisdiction, in the Court of 
Appeals for the District of Columbia, our highest court, and 
the U.S. District Court and in the U.S. Court of Appeals.
    We are particularly grateful to Ms. Cordero for her work as 
the first community prosecutor in the District of Columbia, 
former U.S. Attorney set that post up, and she had to in fact 
form it. She has continued to work on community-based programs 
which have been effective in reducing violent crime in the 
District of Columbia. We hate to lose her where she is. We know 
she will do great work where she is going, where she has been 
nominated to go.
    I also have the honor of introducing a particularly 
distinguished judge, Associate Judge of the Superior Court, 
presently serving on the Superior Court of the District of 
Columbia, very long experience on that court in all manner of 
trials, from murder trials to family court and civil court.
    Judge Kramer, Judge Noel Kramer is much revered for her 
work on our courts. She has been the presiding judge for the 
past 3 years of the Criminal Division. That is a particularly 
difficult division. She will always be remembered for her work 
on the Community Court. This is a court that works to provide 
defendants with substance abuse and mental health treatment and 
employment skills so they do not return to crime, since 
recidivism is the major problem of the criminal justice system. 
This is much appreciated work in our city.
    This is a much honored lawyer and judge. She has been 
President of the National Association of Women Judges. The 
Congress, the House and the Senate, might want to take note of 
the fact that she has worked on the D.C. Bar Committee that 
drafted guidelines for civility in the legal profession.
    She has been honored by the D.C. Women's Bar Association 
for her activity as a mentor of young judges. Judge Kramer 
began with the law firm of Wilmer, Cutler and Pickering in the 
District of Columbia. She went to the U.S. Attorney's Office 
for the District of Columbia. She is a graduate of University 
of Michigan Law School, where she served on the Michigan Law 
Review. She is an honors graduate of Vassar College. She was 
the first President of the Women's Law Students Association. 
She most recently has been named Woman Lawyer of the Year by 
the D.C. Women's Bar Association.
    I think I have said enough to make you understand why the 
President would nominate Judge Kramer, and I am honored and 
pleased to introduce her as well, Mr. Chairman.
    Senator Voinovich. Thank you, Congressman Norton. Thank you 
also for your nice comments about the Chairman of the 
Subcommittee. We have been friends for a long time and I look 
forward to working with you on matters like this and also the 
District of Columbia. I know you are very busy, and if you 
excuse yourself we will all understand.
    Ms. Norton. Thank you, Mr. Chairman.
    Senator Voinovich. Thank you.
    As Congresswoman Norton has pointed out, Judge Kramer has 
served as an Associate Judge in the Superior Court of the 
District since 1984. During her tenure she resided over civil, 
family and criminal cases, heavily involved in establishing the 
East of the River Community Court, and has provided over the 
court since its inception in September 2002. The Court was 
established to increase judicial understanding of the public 
safety and quality of life concerns of the citizens East of the 
Anacostia River, and to provide drug treatment, mental health 
counseling, employment assistance, and other services.
    Judge Kramer, I am sure they are going to miss your 
leadership in that organization. I thank you for your years of 
service.
    Ms. Cordero has served as clerk to the Hon. James A. Parker 
of the U.S. District Court for the District of New Mexico for a 
2-year term. In 1991, Ms. Cordero joined the Department of 
Justice where she was assigned to the Civil Rights Division. In 
1993 Ms. Cordero joined the U.S. Attorney's Office for the 
District of Columbia. In 1999, Ms. Cordero was assigned as the 
first community prosecutor as part of the U.S. Attorney's 
Office Citywide Community Prosecution Program.
    Currently Ms. Cordero is the Executive Assistant U.S. 
Attorney for External Affairs. She is responsible for 
developing, coordinating, and maintaining effective 
partnerships with Federal and local law enforcement, government 
agencies in the community and the District of Columbia. That is 
a major challenge, getting them all to work together.
    She also coordinates an extensive community engagement 
network aimed at reducing violent crime in the District of 
Columbia.
    I believe that our candidates are both well qualified for 
the position to which they have been nominated.
    Senator Pryor, would you like to say a few words?
    Senator Pryor. I just want to hear from the nominees. Their 
backgrounds and resumes sound very impressive, so I look 
forward to hearing what you have to say.
    Senator Voinovich. As I mentioned earlier, it is the custom 
of this Committee for those that appear here to take the oath, 
and if you will stand up, I will administer it to you.
    Do you swear that the testimony you are going to be giving 
today is the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Ms. Cordero. I do.
    Judge Kramer. I do.
    Senator Voinovich. Judge Kramer, I understand that you may 
have some family members here today, as well as supportive 
colleagues and friends, and I will give you an opportunity to 
introduce them to us today. This is a very special day, I am 
sure, for them.
    Judge Kramer. Thank you, Senator. I am really honored to be 
here today. I am delighted to have an opportunity to introduce 
to you some of the people who have accompanied me today.
    Let me begin with my husband, Frank Kramer, to whom I have 
been married for 35 years. My son, Christopher is a former 
staff member of the Permanent Committee on Investigations and 
heading off to law school next year. My older child, my 
daughter, Katherine, is working in San Francisco and 
unfortunately unable to be here today.
    The next person I want to introduce to you is the 
equivalent of family, if you will, and that is my judicial 
assistant of 18 years, Jackie Waller. If you could stand since 
you are in the audience. I have to say that she has provided me 
with the utmost support for 18 years, and in all of my various 
endeavors, and I sometimes think that I get too much credit and 
she gets too little.
    My current law clerk, Natalia Medly, also like myself, a 
graduate of the University of Michigan Law School, and our dear 
young friend, Douglas Robb, who is a recent graduate of the 
Naval Academy and often takes up residence in our home.
    In addition I would like to say that I have two other law 
clerks who happily are here today and would just like to 
mention their name, Murray Scheel, who actually has now 
preceded me to the Court of Appeals since he clerks for Judge 
Ruiz, and Braden Murphy, who is also here.
    I am also honored to be accompanied here today by Chief 
Judge Rufus King of the D.C. Superior Court, who has been 
unfailing in his support of my various endeavors throughout his 
term as the Chief Judge. Also Chief Judge Annice Wagner of the 
D.C. Court of Appeals, who I so look forward to working with. 
And also Chief Judge Designate Eric Washington of the D.C. 
Court of Appeals.
    So those are my introductions, Senator.
    Senator Voinovich. Thank you. Your family and extended 
family.
    Ms. Cordero, would you like to introduce members of your 
family that are here today?
    Ms. Cordero. Yes, thank you, Mr. Chairman.
    With me today is my mother, Ofelia Cordero, who recently 
celebrated her 80th birthday.
    Senator Voinovich. Congratulations.
    Ms. Cordero. My husband, Poli Marmolejos; our three 
daughters, Sofia, Cecilia, and I believe in the interest of 
preserving the integrity of these proceedings, our 4-year-old 
Amalia is outside. [Laughter.]
    I would also like to introduce my extended family of 
friends and colleagues, who over the many years of my 
professional career have shared their wisdom, support, guidance 
generously, and who have joined me here today, and I very much 
appreciate their support and the fact that they are here with 
me today.
    Senator Voinovich. Thank you very much.
    There are three questions that I would like each of you to 
answer. First, is there anything that you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated? Ms. 
Cordero, Judge?
    Judge Kramer. No.
    Ms. Cordero. No, Mr. Chairman.
    Senator Voinovich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Judge Kramer. I do not, Senator.
    Ms. Cordero. No, sir.
    Senator Voinovich. And last but not least, do you know of 
any reason, personal or otherwise, that would in any way 
prevent you from serving the full term for the office to which 
you have been nominated?
    Judge Kramer. Let me say, Senator, that it is my intention 
to serve until the law's mandatory retirement age requires that 
I step down as an active judge, and that will be shortly before 
my term would end.
    Senator Voinovich. Ms. Cordero.
    Ms. Cordero. No, sir.
    Senator Voinovich. Do either one of you have a statement 
you would like to make for us today?

TESTIMONY OF THE HON. NOEL ANKETELL KRAMER,\1\ TO BE ASSOCIATE 
          JUDGE, DISTRICT OF COLUMBIA COURT OF APPEALS

    Judge Kramer. I would like to just simply make a very brief 
statement. I have been on the D.C. Superior Court for 20 years 
now. I can sincerely say that it has been a challenging and 
fulfilling job, as much as I could have ever asked for, but 
should the Senate see fit to confirm me for our Court of 
Appeals, I would be thrilled by the opportunity to serve the 
District of Columbia in this new role.
---------------------------------------------------------------------------
    \1\ The biographical and professional information appears in the 
Appendix on page 70.
---------------------------------------------------------------------------
    Let me also say that I much appreciate having the 
opportunity to appear before the Committee today. I appreciate 
the staff work that goes into such appearances, and I thank you 
for having me, and I thank President Bush for nominating me for 
this position.
    Senator Voinovich. Thank you.
    Ms. Cordero, do you have a statement you would like to 
make?

  TESTIMONY OF THE HON. LAURA A. CORDERO,\2\ TO BE ASSOCIATE 
       JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Cordero. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \2\ The biographical and professional information appears in the 
Appendix on page 105.
---------------------------------------------------------------------------
    I would like to express my sincere gratitude to you, Mr. 
Chairman, for making the arrangements for this hearing today, 
to the Committee Members and to the staff. For some period of 
time now they have graciously extended their guidance through 
these proceedings, and I am very grateful for that.
    I also would like to thank the President for nominating me 
for this very important position. I am very much humbled by the 
opportunity to continue to serve the residents of the District 
of Columbia if I were to be fortunate enough to be confirmed as 
Associate Judge of the Superior Court of the District of 
Columbia.
    Senator Voinovich. Thank you.
    Ms. Cordero, whether it is through your experience of 
appearing before judges or in observing your colleagues, I am 
sure that you have observed a variety of judicial temperaments. 
I would like you to discuss for me what you think the 
appropriate temperament and approach of a judge should be.
    Ms. Cordero. I have indeed, Mr. Chairman. I believe after 
spending many years in the courtroom first as a law clerk, and 
then the last 12 years as an Assistant U.S. Attorney 
representing the United States of America, I do believe that it 
is of the utmost importance to have, above all, fairness and 
impartiality from the Court. I think it is equally important 
for those who preside in those courtrooms to accord each and 
every person who comes into the courtroom, whether they are a 
litigant, a party, an attorney, a witness or a spectator, the 
utmost respect and dignity. I think those are very important 
factors for the appropriate judicial temperament.
    Senator Voinovich. Judge Kramer, you are moving to the D.C. 
Court of Appeals, which has a Chief Judge and eight Associate 
Judges, and is the equivalent of a State Supreme Court, whereas 
the Superior Court where you have been, you are a judge with 
your own courtroom. How are you going to handle the transition 
from the Superior Court to the Court of Appeals?
    Are you going to be bored, Judge? [Laughter.]
    Judge Kramer. Senator, you are not the first person to ask 
me that question. I am confident that I will not be bored 
should I be so fortunate as to be confirmed. I've looked 
forward very much to bringing my experience to the Court of 
Appeals. Our Court of Appeals is really renowned nationally for 
its collegiality and its scholarship, and I am fortunate to 
personally know the members of the Court of Appeals, so I don't 
have any surprises in that regard. Indeed, even President 
Bush's most recent nominee and I go back to practically 
kindergarten, but that would be kindergarten in the U.S. 
Attorney's Office.
    I look forward to the opportunity to work with others on 
making decisions. As a trial judge you work alone, and although 
it seems as if the Court of Appeals may be more isolating, were 
it not for staff, as a trial court judge you can actually be 
quite isolated. So I look forward to that opportunity. I look 
forward very much, should I be confirmed, to the opportunity to 
play a greater role in the development of the law in the 
District of Columbia.
    Senator Voinovich. Thank you. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Judge Kramer, let me inquire, if I may. A mention was made 
to community court?
    Judge Kramer. Yes.
    Senator Pryor. I do not know if I understand what that 
means.
    Judge Kramer. Well, the idea of a community court is to 
take a group of cases that are of a misdemeanor nature. There 
may be community courts that involve felonies, but I don't know 
of any if there are. The low-level offenses that present a 
challenge for the community in terms of what to do with the 
offenders, where the offenders are not violent criminals, but 
are continually involved in activities that get them arrested, 
activities such as drugs, prostitution, unlawful entries, 
because perhaps they're homeless, or other low-level offenses 
such as this. Not drug sales or drug possession. Drug use 
particularly is a problem.
    Senator Pryor. So all of these are criminal in nature.
    Judge Kramer. Always criminal in nature. If by working with 
not only the judge but resources in the community----
    Senator Pryor. So social services and other type----
    Judge Kramer. Exactly, social services, drug treatment 
programs, mental health programs----
    Senator Pryor. Nonprofits, just whatever might be out 
there.
    Judge Kramer [continuing]. maybe prostitution programs. You 
can't stop the revolving door, but, at least, as Judge King so 
aptly put it once, you can slow down the revolving door. We 
don't expect miracles, but we can at least attempt to slow down 
the revolving door, to change lives.
    At the same time it's a court and you--also one of the 
things that makes it effective is a close relationship between 
the judge and the defendant, regular reviews, that kind of 
thing, so that there is true accountability, because without 
accountability you don't get very far.
    Senator Pryor. So there is some post-adjudication contact?
    Judge Kramer. Most of these cases are--actually, another 
key element is the cooperation of the U.S. Attorney's Office or 
the prosecutor. Most of these cases actually end up with 
dismissals if people do what they are supposed to do.
    Senator Pryor. Do you use a mix of probation and that type 
of thing to see if, for lack of a better term, they will stay 
on the straight and narrow for a designated time?
    Judge Kramer. Yes, that's also used.
    Senator Pryor. How long have you been involved with the 
Community Court?
    Judge Kramer. It began in September 2002, and my law clerk, 
Braden Murphy, was with me the first time I went out into the 
community for this.
    Senator Pryor. When you say go out in the community----
    Judge Kramer. Yes. That is another strong element of it. 
The judge goes into the community on a regular basis, is known 
in the community, tries to be high profile in the community, 
speaks with the citizens, learns their concerns. This 
particular community court was the East of the River Community 
Court, so it speaks for itself through its name. It has been 
going now since September 2002.
    Senator Pryor. As I understand it, you have been on the 
bench for 20 years?
    Judge Kramer. Yes.
    Senator Pryor. We have been talking about criminal here. 
Have you done civil as well?
    Judge Kramer. Oh, yes.
    Senator Pryor. What type of civil cases have you handled? I 
mean just everything, just whatever is filed?
    Judge Kramer. That is basically a good description, 
everything that's filed from landlord/tenant through what we 
call our Civil 1 cases, including some asbestos cases, a lot of 
malpractice matters, and contract issues, civil rights cases, 
the whole gamut.
    Senator Pryor. Thank you.
    Ms. Cordero, your colleague there has community court on 
her resume. You have community prosecutor.
    Ms. Cordero. Yes, sir.
    Senator Pryor. Is there a connection there?
    Ms. Cordero. There most definitely is. I think generally 
the criminal justice partners have looked at new and innovative 
approaches to try to prevent crime as opposed to deal with the 
crime when it has already been committed. Our office certainly 
is an integral partner of the community court effort. Our 
prosecutors are integral partners in this effort. Much of what 
is done in the community court itself is, as Judge Kramer 
noted, preventive, and that's exactly what we do at the U.S. 
Attorney's Office through the community prosecution effort.
    We go to many community meetings. In fact, we average about 
600 a year. I've gone to hundreds of community meetings myself 
over the years, and I think it's a critical component for us as 
public servants to maintain that dialogue at all times with the 
residents that we serve to better understand what their public 
safety needs are.
    They vary greatly as you go from one part of the community 
to the other, and it's important to know what their priorities 
are and for us as law enforcement to work with them, to try to 
identify what is the best way that we can address some of those 
challenges.
    Senator Pryor. And you have been with the U.S. Attorney's 
Office for 12 years.
    Ms. Cordero. Yes, sir.
    Senator Pryor. What type of cases have you handled at the 
U.S. Attorney's Office?
    Ms. Cordero. The U.S. Attorney's Office has a great 
opportunity for young assistants because they rotate them 
through various sections in the office. I first did some 
appellate work, and then moved on to trial work, doing all 
types of misdemeanors, certainly prostitution, possession, 
assaults, and then handled some of the felony matters, 
narcotics, stolen drugs, and robbery. I also prosecuted some 
cases in the U.S. District Court for the District of Columbia 
under some Federal statutes, counterfeit currency. I did some 
human trafficking cases, illegal bringing in of undocumented 
persons. So I've had a pretty extensive and diverse caseload as 
an Assistant U.S. Attorney there.
    Senator Pryor. Sounds like all criminal.
    Ms. Cordero. Yes. While I was at the U.S. Attorney's Office 
I have only handled criminal cases. The civil cases I have 
handled were before my tenure as an Assistant U.S. Attorney. 
While I was at the Department of Justice I did have the 
opportunity to serve as a trial attorney in the Civil Rights 
Division, enforcing the Voting Rights Act of 1965, and so I had 
the opportunity to crisscross the country, working with 
citizens and safeguarding their right to vote in our great 
democracy. So those were civil suits that were filed in the 
course of that.
    I did handle some civil cases while I was in law school. 
For 2 years I served at the Harvard Legal Aid Bureau, serving 
indigent clients on landlord/tenant matters and family court 
matters, and other such things.
    Senator Pryor. Thank you. Really, one last double question, 
if I may, Mr. Chairman, and that is, I am curious for both of 
you, your thoughts on the greatest challenges facing the D.C. 
Court system, and also how the Congress can respond to those 
challenges. I assume there are some things that can be done on 
the local level, and I am sure you will work on those things, 
and I would like to hear about that, but also what Congress can 
do.
    You want to go next, Judge Kramer?
    Judge Kramer. One of the challenges, well there are several 
challenges, but one is always the volume, because our volume is 
so great, and I think that's probably true also with our Court 
of Appeals, although I don't pretend to be an expert on that 
issue.
    Senator Pryor. Now, when you say volume do you mean you 
need more judges or more----
    Judge Kramer. No.
    Senator Pryor. Better facilities or more support staff.
    Judge Kramer. Well, it is a continuing challenge. I'm not 
asking for more judges right now. I would leave that issue to 
my chief, but that is a challenge. Part of the issue on the 
criminal side, which is where I've spent the last 6 years of my 
life, are finding the resources in the community to adequately 
reduce the recidivism in the District of Columbia. That was one 
of the reasons why community court was begun.
    I don't think that we have yet gotten to the point where we 
have adequate resources such as drug treatment programs, which 
are so critical for making changes in people's lives, mental 
health treatment, that kind of thing. These are issues that 
still exist as unsolved problems many ways in the criminal 
justice system.
    On our family court side, of course, as I'm sure you know, 
Congress has been extraordinarily helpful, and we have 
resources that when I sat in Family Court we never had. Just as 
somebody who looks back on where we were and where we are, I 
would like to thank you all for bringing about and providing 
the resources to make a change there. In terms of the court, I 
think that substantial--a world of difference has occurred.
    Ms. Cordero. Senator, I would agree with Judge Kramer, that 
I think one of the challenges is certainly the volume of the 
Superior Court of the District of Columbia. They preside over 
any matter, anything from criminal, civil, family, and probate. 
I think among the challenges for the court is there is always 
an issue of volume and an issue of resources, and how do we 
maximize the resources that we have to try to identify 
solutions for some of the systematic issues that may arise. 
Certainly, I see great strides in the court in terms of 
identifying models like community court. They recently started 
a truancy court as well, where they have only one judge 
presiding over all truancy matters. I think, again, that's 
always going to be an ongoing challenge, how do you maximize 
the resources that you have to provide the best service that 
you can ultimately to all the litigants that come before you.
    Senator Voinovich. I want to thank both of you for your 
testimony here today. I know you are anxious to be confirmed 
and invested. The next step in this process will be 
consideration of your nomination at a Committee business 
meeting, and reporting your nomination to the Senate for final 
action.
    I am happy to see that your families are with you, 
supporting you. I know it is a very proud day for them. Thank 
you both for the service that you have rendered to the District 
of Columbia, and we look forward to your continued service.
    [Whereupon, at 3:58 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T2194.001

[GRAPHIC] [TIFF OMITTED] T2194.002

[GRAPHIC] [TIFF OMITTED] T2194.003

[GRAPHIC] [TIFF OMITTED] T2194.004

[GRAPHIC] [TIFF OMITTED] T2194.005

[GRAPHIC] [TIFF OMITTED] T2194.006

[GRAPHIC] [TIFF OMITTED] T2194.007

[GRAPHIC] [TIFF OMITTED] T2194.008

[GRAPHIC] [TIFF OMITTED] T2194.009

[GRAPHIC] [TIFF OMITTED] T2194.010

[GRAPHIC] [TIFF OMITTED] T2194.011

[GRAPHIC] [TIFF OMITTED] T2194.012

[GRAPHIC] [TIFF OMITTED] T2194.013

[GRAPHIC] [TIFF OMITTED] T2194.014

[GRAPHIC] [TIFF OMITTED] T2194.015

[GRAPHIC] [TIFF OMITTED] T2194.016

[GRAPHIC] [TIFF OMITTED] T2194.017

[GRAPHIC] [TIFF OMITTED] T2194.018

[GRAPHIC] [TIFF OMITTED] T2194.019

[GRAPHIC] [TIFF OMITTED] T2194.020

[GRAPHIC] [TIFF OMITTED] T2194.021

[GRAPHIC] [TIFF OMITTED] T2194.022

[GRAPHIC] [TIFF OMITTED] T2194.023

[GRAPHIC] [TIFF OMITTED] T2194.024

[GRAPHIC] [TIFF OMITTED] T2194.025

[GRAPHIC] [TIFF OMITTED] T2194.026

[GRAPHIC] [TIFF OMITTED] T2194.027

[GRAPHIC] [TIFF OMITTED] T2194.028

[GRAPHIC] [TIFF OMITTED] T2194.029

[GRAPHIC] [TIFF OMITTED] T2194.030

[GRAPHIC] [TIFF OMITTED] T2194.031

[GRAPHIC] [TIFF OMITTED] T2194.032

[GRAPHIC] [TIFF OMITTED] T2194.033

[GRAPHIC] [TIFF OMITTED] T2194.034

[GRAPHIC] [TIFF OMITTED] T2194.035

[GRAPHIC] [TIFF OMITTED] T2194.036

[GRAPHIC] [TIFF OMITTED] T2194.037

[GRAPHIC] [TIFF OMITTED] T2194.038

[GRAPHIC] [TIFF OMITTED] T2194.039

[GRAPHIC] [TIFF OMITTED] T2194.040

[GRAPHIC] [TIFF OMITTED] T2194.041

[GRAPHIC] [TIFF OMITTED] T2194.042

[GRAPHIC] [TIFF OMITTED] T2194.043

[GRAPHIC] [TIFF OMITTED] T2194.044

[GRAPHIC] [TIFF OMITTED] T2194.045

[GRAPHIC] [TIFF OMITTED] T2194.046

[GRAPHIC] [TIFF OMITTED] T2194.047

[GRAPHIC] [TIFF OMITTED] T2194.048

[GRAPHIC] [TIFF OMITTED] T2194.049

[GRAPHIC] [TIFF OMITTED] T2194.050

[GRAPHIC] [TIFF OMITTED] T2194.051

[GRAPHIC] [TIFF OMITTED] T2194.052

[GRAPHIC] [TIFF OMITTED] T2194.053

[GRAPHIC] [TIFF OMITTED] T2194.054

[GRAPHIC] [TIFF OMITTED] T2194.055

[GRAPHIC] [TIFF OMITTED] T2194.056

[GRAPHIC] [TIFF OMITTED] T2194.057

[GRAPHIC] [TIFF OMITTED] T2194.058

[GRAPHIC] [TIFF OMITTED] T2194.059

[GRAPHIC] [TIFF OMITTED] T2194.060

[GRAPHIC] [TIFF OMITTED] T2194.061

[GRAPHIC] [TIFF OMITTED] T2194.062

[GRAPHIC] [TIFF OMITTED] T2194.063

[GRAPHIC] [TIFF OMITTED] T2194.064

[GRAPHIC] [TIFF OMITTED] T2194.065

[GRAPHIC] [TIFF OMITTED] T2194.066

[GRAPHIC] [TIFF OMITTED] T2194.067

[GRAPHIC] [TIFF OMITTED] T2194.068

[GRAPHIC] [TIFF OMITTED] T2194.069

[GRAPHIC] [TIFF OMITTED] T2194.070

[GRAPHIC] [TIFF OMITTED] T2194.071

[GRAPHIC] [TIFF OMITTED] T2194.072

[GRAPHIC] [TIFF OMITTED] T2194.073

[GRAPHIC] [TIFF OMITTED] T2194.074

[GRAPHIC] [TIFF OMITTED] T2194.075

[GRAPHIC] [TIFF OMITTED] T2194.076

[GRAPHIC] [TIFF OMITTED] T2194.077

[GRAPHIC] [TIFF OMITTED] T2194.078

[GRAPHIC] [TIFF OMITTED] T2194.079

[GRAPHIC] [TIFF OMITTED] T2194.080

[GRAPHIC] [TIFF OMITTED] T2194.081

[GRAPHIC] [TIFF OMITTED] T2194.082

[GRAPHIC] [TIFF OMITTED] T2194.083

[GRAPHIC] [TIFF OMITTED] T2194.084

[GRAPHIC] [TIFF OMITTED] T2194.085

[GRAPHIC] [TIFF OMITTED] T2194.086

[GRAPHIC] [TIFF OMITTED] T2194.087

[GRAPHIC] [TIFF OMITTED] T2194.088

[GRAPHIC] [TIFF OMITTED] T2194.089

[GRAPHIC] [TIFF OMITTED] T2194.090

[GRAPHIC] [TIFF OMITTED] T2194.091

[GRAPHIC] [TIFF OMITTED] T2194.092

[GRAPHIC] [TIFF OMITTED] T2194.093

[GRAPHIC] [TIFF OMITTED] T2194.094

[GRAPHIC] [TIFF OMITTED] T2194.095

[GRAPHIC] [TIFF OMITTED] T2194.096

[GRAPHIC] [TIFF OMITTED] T2194.097

[GRAPHIC] [TIFF OMITTED] T2194.098

[GRAPHIC] [TIFF OMITTED] T2194.099

[GRAPHIC] [TIFF OMITTED] T2194.100

[GRAPHIC] [TIFF OMITTED] T2194.101

[GRAPHIC] [TIFF OMITTED] T2194.102

[GRAPHIC] [TIFF OMITTED] T2194.103

[GRAPHIC] [TIFF OMITTED] T2194.104

[GRAPHIC] [TIFF OMITTED] T2194.105

[GRAPHIC] [TIFF OMITTED] T2194.106

[GRAPHIC] [TIFF OMITTED] T2194.107

                                 <all>

</pre></body></html>
